Q Srnithsonian Institution 

     Office of the Inspector General

     March 3 1,2008

     Audit and Review Committee
     Board of Regents
     Smithsonian Institution
     Washington, D.C. 20560


     Dear Members of the Audit and Review Committee:

     In Fiscal Year 2007, the Office of the Inspector General served as the Smithsonian's
     Contracting Officer's Technical Representative to provide audit quality oversight of the
     Smithsonian's independent certified public accounting firm, KPMG LLP. This letter
     presents our observations on the FY 2007 audit process for the Federal Closing Package
     and the Annual Financial Statement Audit, and includes comments on improving the
     process for the FY 2008 audit cycle and beyond. We also briefly summarize the audit of
     the Smithsonian's federal awards, which was performed in accordance with U.S. Office of
     Management and Budget Circular A- 133.

     Our review, as differentiated from KPMG's audits, which were conducted in accordance
     with the American Institute of Certified Public Accountants' (AICPA) generally accepted
     auditing standards and GAO's Government Auditing Standards, was not intended to
     enable us to express, and we do not express, an opinion on the Smithsonian's financial
     statements, internal controls, or compliance with laws and regulations. KPMG is
     responsible for the auditors' reports and the conclusions therein.

     We found no instances where KPMG did not comply, in all material respects, with
     AICPA generally accepted auditing standards and Government Auditing Standards.
     However, we believe KPMG and the Smithsonian could improve the audit process. We
     begin with a brief summary of significant findings from the FY 2007 audit engagements
     and then turn to our own observations.

     We also make one recommendation: that Smithsonian management develop a
     comprehensive plan of action to address all deficiencies KPMG has identified as well as all
     recommendations from this office and those resulting from the Institution's ongoing
     governance reform efforts.

     Our scope and methodology is included in Attachment A.




     MRC 524
     PO Box 37012
     W a s h i n g t o n DC 20013-7012
     202.633.7050 Telephone
     202.633.7079 Fax
Federal Closing Package of the Smithsonian's Special-Purpose Financial Statements

On November 15,2007, KPMG issued an unqualified opinion on the FY 2007 Federal
special-purpose financial statements. KPMG found no matters involving internal control
that it considered to be material weaknesses. Additionally, KPMG indicated that the Chief
Financial Officer (CFO) implemented sufficient actions to resolve the two reportable
conditions from last year's independent auditors' report on the Smithsonian's special-
purpose financial statements associated with Federal Employment Compensation Act
liabilities and post-retirement benefit costs.

However, KPMG reported a significant deficiency in internal control over financial
reporting regarding the Office of the Comptroller's (OC) accounting resources and staff
capacity. As KPMG noted, this issue is a continuation of a reportable condition KPMG
identified in last year's management letter on its audit of the Smithsonian's financial
statements. As a result of the resource shortage, closing the federal general ledger was
delayed for two weeks. Moreover, OC's inability to provide sufficient supervisory review
of journal entries, account reconciliations, and supporting schedules led to several
significant accounting errors and inconsistencies in the preparation of the special-
purpose financial statements.

KPMG recommended that the CFO and other appropriate members of the Smithsonian's
financial management team continue to focus on the accounting resource needs and staff
capacity in OC during FY 2008 and consider reorganization where necessary to ensure
that appropriate supervisory depth is in place and that resources are adequate to meet the
organizations requirements. The CFO agreed that accounting resources and staff capacity
in OC are strained and indicated that efforts are continuing to rebuild OC supervisory
and other staff.

SmithsonianInstitution FinancialStatements

On February 15,2008, KPMG issued an unqualified opinion on the Smithsonian's
financial statements for FY 2007 and found no matters involving internal control that it
considered to be material weaknesses. However, KPMG identified seven significant
deficiencies:

   Accounting Resources and Staff Capacity. The Smithsonian's accounting and
   financial reporting processes for FY 2007 were insufficient to identifyand detect all
   misstatements that were more than inconsequential to the financial statements.
   KPMG identified numerous adjustments that management recorded in the financial
   statements as well as a number of unadjusted audit differences. KPMG noted that
   compared to FY 2006, OC accounting personnel resources had deteriorated further.

   Lease Accounting. KPMG identified several significant audit differences required to
   properly report tenant improvement allowances as well a several other errors in the
   accounting for leases that amounted to over $12 million. Smithsonian units were
   typically negotiating the terms of lease agreements with limited or no input from the
   OC as to any accounting implications of the proposed agreement terms.
Contribution Accounting. KPMG noted several instances where insufficient
communications between the Office of Development (OD) and OC resulted in
misstatements in the FY 2007 accounting records. For instance, the present value
discount calculation to reflect significant changes in the timing of expected payments
to be made on a pledge required an adjustment of $6 million to record an additional
discount at September 30,2007. KPMG also noted that procedures for calculating
appropriate reserve estimates for contributions receivable needed improvement.
KPMG proposed an audit adjustment to increase the reserve against specific pledges
by nearly $3 million, but management did not record the proposed adjustment.

Account Reconciliation. Reconciliations performed by OC did not resolve
unreconciled payroll account activity, among other account reconciliation problems,
resulting in a $2 million audit adjustment.

Financial Statement Presentation of Donor Restrictions. The process used by the
Smithsonian to track donor-restricted funding is a complicated, manual, multi-office
process that is prone to error. KPMG identified mistakes in beginning balances, audit
differences, and other accounting problems that ranged from $3.8 million to over
$12 million. In addition, disclosures in the Smithsonian's financial statements did not
include required information on the nature and amounts of temporarily and
permanently restricted net assets or the nature of the temporary restrictions that are
satisfied during the year.

Reporting of Grant Revenue and Receivables. KPMG noted that although the Office
of Sponsored Projects regularly reconciles revenues and receivable balances for all
grant activity, management did not ensure that a complete reconciliation of the entire
temporarily restricted net asset balance based on prior-year starting balances and all
current year activities was performed. KPMG identified errors and unexpected
reconciling items in the temporarily restricted net asset balances. KPMG proposed
adjustments of $2 million and $4.8 million to correct the accounts (management did
not record the $4.8 million adjustment).

Investments Held by Trustees. KPMG noted that the Smithsonian did not have
current information relating to all its investments held in one trust and that it only
had limited "visibility" or information on the non-marketable investment assets of
two other trusts valued at $13.5 million as of September 30,2007.

Other Weaknesses. While KPMG noted that the Smithsonian significantly enhanced
how it monitors the valuations of non-marketable investments, KPMG also noted
that the Institution needs to improve documentation and review procedures to
address year-end valuation procedures, assessment of incentive fees, and the
development and use of risk ratings to better align oversight procedures and resources
with assessed risk levels. The Institution also needs to refine the methodology and
application of certain expense allocations as well as to perform a coordinated analysis
and prepare documentation of tax positions to satisfy new accounting standards.
Although the number of FY 2007 uncorrected audit differences increased from FY 2006,
the dollar impact on net assets was substantially less. Similarly, recorded adjustments,
which amounted to nearly $140 million in FY 2006, decreased to $57 million in FY 2007.
Further, the associated impact of the adjustments on net assets improved from an
aggregate decrease of about $94 million to an increase of a little more than $2 million. See
the chart below for more details (dollar amounts are in millions).




KPMG's Management Letter accompanying its opinion on the Smithsonian's FY 2007
financial statements contained 19 recommendations to correct these deficiencies.
Smithsonian management agreed to take corrective actions on all recommendations. We
noted that KPMG does not typically track individual recommendations or require
estimated completion dates for management's corrective actions. Accordingly, while
management agreed to complete a few of the corrective actions in FY 2008, it did not
provide specific milestones for many of the needed actions.

Smithsonian's OMB A-133 Audit of Federal Awards

The Smithsonian's OMB Circular A-133 audit process is a coordinated effort between
KPMG and the Defense Contract Audit Agency (DCAA). Generally, KPMG audits the
direct costs of the Smithsonian's Washington, D.C.-based activities. DCAA audits the
direct costs of the Smithsonian's Astrophysical Observatory in Cambridge, MA, as well as
the indirect costs of the Smithsonian as a whole.

OMB Circular A-133 audit reports are not published until nearly 9 months after the
Smithsonian's fiscal year end due to DCAA's timetable for completing its part of the
audit. As a result, current year results are not yet available. However, in FY 2006, KPMG
gave the Smithsonian an unqualified opinion on its Supplementary Schedules of
Expenditures of Federal.Awards. In addition, the Smithsonian received an unqualified
opinion on its compliance with the requirements of ONIB Circular A- 133 for each of its
major programs. The external auditors identified one reportable condition regarding
controls over the recording of award costs prior to goods and services being received.

DCAA gave the Smithsonian a qualified opinion pending the receipt of certain assist
audit results. Assist audits are audits of subcontractor costs (i.e., subcontractors to the
Smithsonian's primary contractors) done by cognizant DCAA offices. Audits of
subcontractor's costs in the amount of $9,504,333 had not yet been received as of
June 30,2007, the date of the FY 2006 A-133 report.
Prior-year findings and recommendations from the A-133 audit included the need to:
(i) improve leave allocation procedures for employees who expend time on more than
one project; (ii) enhance procedures over disbursements to ensure costs are adequately
documented; and (iii) strengthen procedures over purchase order close-out to ensure that
amounts are not recorded as federal expenditures and requested for reimbursement until
goods and services have been received. In addition, the audits identified small amounts of
unallowable costs that were over-billed to NASA. According to the Comptroller, the
Smithsonian has taken, or will take, appropriate corrective actions on all of the
recommendations, although target dates for completing all actions were not provided.

OIG Observations

In our letter report last year, we discussed three areas that needed strengthening. The
Institution made notable improvements this year, but has considerably more work ahead
to enhance the Institution's accounting and auditing processes.

   Improve Communications between the External Auditor and the Comptroller's
   Office

KPMG and OC made significant improvements in this area. Based on our observations
and discussions with Smithsonian officials, KPMG's meetings with the support offices
(operating units) were more constructive and included more individuals responsible for
providing supporting analyses and documentation. KPMG's use of the "Prepared by
Client" list was more effective in managing the audit than in prior years. Setting up-front
deadlines for Smithsonian staff to provide documentation was especially valuable.
Moreover, unlike last year, there were no surprise audit findings or management letter
comments, indicating better communications with Smithsonian officials throughout the
audit.

To its credit, OC held numerous meetings with Smithsonian support offices to ensure a
better understanding of the content and timing of KPMG's data requests. Management
officials from these offices devoted more time and effort to the process, resulting in some
improvements in the reliability and timeliness of the supporting data. Overall, the
Comptroller and Smithsonian staffs were engaged during the audit process and addressed
KPMG's requests in a timelier manner.

The above improvements notwithstanding, KPMG and the Smithsonian must continue
to strengthen the audit process. KPMG needs to ensure that OC and support office staffs
fully understand the extent of the documentation needs for any given request and the
potential for continuing follow-up and requests for additional information. OC and the
support offices need to provide more accurate and complete documentation for general
ledger accounts, reconciliations, and supporting analyses. The Comptroller also needs to
provide effective training to OC staff and Smithsonian units so that accounts can be
closed more timely and with fewer adjustments.
   Perform More Robust Interim Testing

To enhance the efficiency and effectiveness of the annual financial statement audit, more
focus should be placed on substantive interim testing of account balances and
transactions. Doing so will reduce the amount of year-end testing and the time needed to
resolve audit differences and other issues. We encouraged the Chief Financial Officer to
work closely with KPMG to develop and implement a plan that identifies the timing and
tasks to accommodate more detailed testing of interim account balances.

In FY 2007, KPMG and OC initiated discussions and planning to resolve this issue but
made little progress due to the Smithsonian's accounting resource constraints.

   Develop a Plan for Closing Accounts and Producing Financial Statements Quarterly

For the external auditor to perform substantive interim testing, the Smithsonian needs to
produce interim account closings. According to the Chief Financial Officer, the
Smithsonian currently does not have the requisite systems or staff resources to routinely
perform interim account closings and produce quarterly financial statements. Getting
better and more frequent accounting data from the support offices will require staffing
and procedural changes.

In the short term, the Chief Financial Officer has identified 10 new accounting positions
to help strengthen the accounting and reporting process. Five of these positions will be
located in the units that typically have the most difficulty reporting timely, accurate
financial statement information and have a material impact on the Institution's financial
statements. In addition, the Comptroller has undertaken a top-to-bottom review of all
general ledger balances, which includes visits to Smithsonian support offices, training,
eliminating duplicate and inactive accounts, identifying process improvements, resolving
unusual balances and transactions, and conducting account reconciliations.

In the longer term, the Smithsonian needs to commit adequate resources for systems
development and support as well as financial staff to be able to produce timely, credible
quarterly financial statements and to designate as many accounts as is practicable for
interim closing (June30).

The Institution Needs a Comprehensive Plan

In our view, the Smithsonian must develop a comprehensive plan to address the
deficiencies in its accounting and reporting processes that KPMG, this office, and the
Regent's Governance Committee have identified over the last few years.

While the Smithsonian made some improvements in FY 2007, particularly in investment
valuation and Smithsonian Business Ventures' accounting procedures, KPMG reported
that OC's accounting personnel resources continued to deteriorate. KPMG noted that
overall the Smithsonian's accounting and financial reporting processes for FY 2007 were
insufficient to identify and detect all misstatements that were more than inconsequential
to its financial statements.
KPMG made 19 new recommendations for strengthening the Institution's accounting
and reporting controls. Moreover, OC has not fully implemented actions to resolve 12 of
the 23 recommendations made by KPMG in last year's audit. In its response to the 19
current audit recommendations, OC did not provide completion dates for the majority of
the needed corrective actions.

The chart below shows the status of KPMG's recommendations related to its financial
statement audits for the last 2 years.




In addition to KPMG's recommendations, there are three open OIG recommendations
on which OC has not taken sufficient action. These recommendations, related to the lack
of policies and procedures in cash management and banking activities, have remained
open for more than two years, and OC has recently indicated that it will not complete
corrective actions until mid-2009. According to the Comptroller, the primary reason for
the delay is the assignment of the Office of the Chief Information Officer (OCIO) staff to
the Peoplesoft upgrade and the lack of OCIO resources to address all priorities more
timely. In our opinion, delays in implementing the needed improvements increase the
risk that significant accounting and financial reporting errors will continue to occur and
not be detected in a timely manner.

The Institution must also address the recent recommendations from the Independent
Review Committee and the Board of Regents' Governance Committee. These
recommendations directed the Chief Financial Officer to conduct periodic examinations
of senior executive entertainment expenses, review the Smithsonian federal and trust
budget formulation and monitoring process, and assess the Smithsonian's financial
reporting systems and internal controls to ensure the appropriate systems and controls
are in place to enable the Committee and the Board to provide meaningful oversight of
the accuracy and integrity of Smithsonian financial statements and reports.
Accomplishing these tasks in a thorough and timely manner will require an integrated
plan supplemented by substantial resources with commensurate accounting and financial
expertise.

Accordingly, we recommend that Smithsonian management develop a comprehensive
written plan that (i) collects the various recommendations and initiatives into one
strategic document; (ii) prioritizes the various tasks; (iii) maps out required resources to

'In addition to the 11 resolved recommendations, KPMG indicated that the Smithsonian made significant
efforts on the valuation of alternative investments that resulted in substantial resolution of the six
recommendations associated with last year's reportable condition.
                                                       7
complete each task; (iv) assigns responsibility for accomplishing each task; and (v)
stipulates interim and final delivery dates. Senior level officials should closely monitor the
Institution's progress in accomplishing the plan's objectives and provide regular progress
reports to the Board of Regents.

Finally, we note that the schedule for completing the annual financial statement audit
should be shortened to provide more useful and timely financial reporting. The former
Secretary required the audited financial statements to be completed by December 15', in
part to publish audited figures in the Smithsonian's Annual Reports, as well as to provide
timely information to the Board of Regents. We note that the FY 2006 audited statements
were completed on February 20,2007, 143 days after the fiscal year end. For the most
recent audit, the audited statements were released February 15,2008, a 5-day
improvement from the prior year.

Given the limitations of current accounting and reporting systems as well as the lack of
accounting personnel, it is unrealistic to expect completed audited statements
substantially earlier in the near term. In addition, accounting and auditing standards for
alternative investments require significantly more documentation and analysis than in the
past and alternative investments have become an increasingly larger portion of the
Smithsonian's portfolio. Nevertheless, the Smithsonian should strive to issue the audited
statements in time for the Board of Regents' winter meeting, which usually takes place in
late January. This also will more closely align the Institution with best practices in the
non-profit sector.



We sincerely appreciate the professionalism and quality of KPMG's staff that conducted
the FY 2007 audit and the cooperation and dedication of staff in the Office of the Chief
Financial Officer.

Very truly yours,



Inspector General
Attachment A

Scope and Methodology

The scope of our oversight review included KPMG's audits of the special-purpose federal
financial statements and the Smithsonian-wide financial statements for FY 2007, as well
as the OMB A-133 audit for FY 2006.

We reviewed (i) planning documents, including risk assessments, materiality calculations,
audit programs, internal control evaluations, and sampling plans; (ii) test results
of detailed transaction testing; (iii) other selected work papers; and (iv) financial
reporting procedures. In addition, we held discussions with KPMG auditors and
managers, representatives from the Office of the Chief Financial Officer and support
offices, and officials from Smithsonian Business Ventures. For the OMB A-133 audit, we
reviewed the work papers and report and discussed the audit results with KPMG.

We performed our oversight review from July 2007 to March 2008 and designed our
procedures to comply in all material respects with the audit program developed by the
President's Council on Integrity and Efficiency for OIG oversight of independent public
accountants.

We provided KPMG and the CFO with a draft of this report. Based on their comments,
we made changes to the report to the extent we deemed appropriate.
